No. 19-676

 

IN THE

Supreme Court of the United States

JOSEPH A. ZADEH, ET AL.,

Petitioners,
v.
Mari ROBINSON, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

BRIEF OF AMICUS CURIAE
ASSOCIATION OF AMERICAN
PHYSICIANS AND SURGEONS,
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,241 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 18, 2019.

 

Colin Casey Hogan
Wilson-Epes Printifg Co., Inc.
